HHS/OIG, Audit -"Audit of Highmark's Unfunded Pension Costs for the Period Covering 1997 Through 2001,"(A-07-04-00177)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Audit of Highmark's Unfunded Pension Costs for the Period Covering 1997 Through 2001," (A-07-04-00177)
January 21, 2005
Complete
Text of Report is available in PDF format (731 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objectives were to:  (1) determine if pension costs for the years 1997-2001 were funded in accordance with the
Federal Acquisition Regulations (FAR) and the Cost Accounting Standards (CAS) and (2) identify and properly account for
any accumulated unfunded pension costs, including allowable and reassignable portions.  We found that Highmark funded
the pension costs for plan years 1997 through 2001 in accordance with the FAR and the CAS.   However, Highmark
did not identify correctly or account properly for the additional accumulated unfunded pension costs.  We recommended,
as of January 1, 2002, Highmark should decrease its accumulated unallowable pension costs by $236,744 ($12,882 for the
Medicare Part A segment plus $223,862 for the Other segment).  Highmark did not concur with the OIG's recommendation
that it should decrease the accumulated unallowable pension cost by $236,744.